           .'           '.
                      . .   . :;;::;  . . . ''
                              . . , . . ./
                                . ' . .." /'
                                    . . ' -. "    '.   - .."'.. ', .   ' ' " ."'' .:..' .'
                                                                               . - ' '.   . -   ',   . .   .. .




Deparerit of Hea1ti;                                     bm:lIiservces
  . OFFI,CE'                                     O:F '
  . INSPECTOR" GENERA




      YOUTH                 AND; ALCOH.OL:
    LAWS AND ENFORCEMENT
      COMPENDIUM OF STATE LAWS




              sfV1.


      '6



                oQa               SEPER 1991
.'             --. . "' . ' . :, '
     , , " ,,, ,'            , ,   -'   ' "-' ::/ ' .
                                        ..     ' " ,-       ''
                                                            : ;"
                                                        :.- .  ' :.   ' , ':' ''\     , ' :::' :?,
                                                                              .:.., : :'              , '" ,~~~~~
                                                                                                     ;;: :/ :'
                                                                                                             :;\ ".;.; ; : ." ....". '.,.. -;.
                                                                                                                 ;::




                                                                                                                  :'t
                                                                                                                        ;"\'          j:,"', ' --. ',.!;:;;,- ,
                                                                                                                                                \;:
                                                                                                                                               ,:;,
                                                                                                                                                 ;--     ::           ;, ;-   ;;:\: '.
                                                                                                                                                                               : ' ::'
                                                                                                                                                                                    ::;-     ::: --; ::::.-
                                                                                                                                                                                            ::;"     -.,:::. ' ; , , .




                                                    OFFCE, OF$SPE                                                c;l
                                                                                                                                                 (;i;,
                    The miion, of the Offce of Inpeor General (010),. as mandated by Public Law 95-452, as '
                    amended, is to protec, the integrty of the Depanment of Heath and Human Serv ' (HHS) ,
                    progrms as well as the health and welfare ofbenefiCiari served by" those progrms. Th statutory
                    miion is carred Qut through a nationwide netwrk of' audits, investigations, and inpeions
                    conducted by three 010 operating components: ' the ()ffce of Audit Servce, the Offce '
                    Investigations, and the Offce of Evaluation and Iipeions.                                                  The 010, ais .inform the Seetary, of
                    IlS of progrm and management problems                                  and recmmendS'cou                               :to Correc th m. -
                                                                                            f:7.'


                                                          OI'
              The OIG's Offce of Audit Servce (OAS)provid all auditiig semCe for HHS, either by
                nducting audits with itS Ow ' audit resurc" or by , Ove   iDgauditwork done by othc;rs. ,
              Audits exmine the performanCe of HHSprogramandlor itsgianteealld contractors
            " carrng out their respetiVe responsibilties and ate" mtt;nded to provide indepeiident
                esments of HHS programs a d opera ionsirorde joredu
                                                                               'Yaste, ' abUs and    :I:'
             mismanagement and to promote ecnomy aDd' ctencythroughoutthe pepartment.
                                                                                                        :jJi:::')c::                                                                       e;;;::
                                                                                                                               ::::t;:j",;t::~
                                                          OJi                O:J           INl1
             The OIG's Offce of Irvestigations (01) ,    ducts '     " cM ;.d' admtrative
             investigations of alegations of wrongdoing in HHS program or to HHS beneficiaries , and of'
                                                                                                            ria
             unjust ennchment by providers. The investigative effort of 01 lead          cOnvictions, '                                                tocral
             adminitrative sanctions, or civi money penalties The or alS                                                                 overs
               progrm. ' prote
                                                                                   State Medcaid fiaud

           . control units which intigate an              frud and patint ab    in                                                                       th Med
                                    OFFCE OF EVALUATION ,AN                                                                         n SPECIONS
              The DIG's Offce of Evaluation and                            InpetionS (DEI cOnducts short-term management and
              program evaluations (called inpetions),
                                                   that focus on isueS of concern to the Deparent,
              the Congres and the public. The fidings and recmiendations contained in thes
              inpection report generate rapid, accrate" and' up-to-date                                                           inormation on the effciency, '
              wlnerabilty, and effectivenesofdepartmentalpro                                                       in.
                                                                                                                                              :, ii:

              Th report was prepared under the direction of Kaye ,                                                     D.          dwell Regional InspefOr
              General, and Paul' A Gottlober, Deputy Regional' Inpetor General, Offce and Evaluation
              and Inpetions ,                Region IX Participating,                      in this project                     were: '

             Elizbeth Bell                                                                                                                                    Jenner Malen
             Robert Gibbons
                                                                                                                                                              . Brian Pattisn
         . DebOrah Harvey                                                                                                                                     "Brad Rolln
             Donald Lob                                                                                                                                        Elame Shelub
                                                                 Maruta Zitans, Headquarters
 ,,
-:..




       Department of Health and Human Servces
                                   OFFICE OF
          INSPECTOR
                                        GENERAL




               YOUTH AND ALCOHOL:
              LAWS AND ENFORCEMENT
                      COMPENDIUM OF STATE LAWS




                                     Richard    usserow
                                                    P.



                                     INSPECTOR GENERA
                      00


                       'ol   ""a               OEI-09- 91- 0055
...                                                                       . . . . . . . . .. .. .. ... ... ................ .. .. .. .. .. .. .. .. .. .. ...
                                . . . . . . . .. .. .. .. .. .. .. .. .. ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... .... .... .... .... ... .. .. .. .. .. .. .
                                                                                                                                                                               . . .




                              TABLE OF CONTENTS

      INODUCI0N
                                                                                                                                                    . . . . . . . . . . . 1



      MA1Rc.
                          .................................................. 4

          Loopholes in State Laws. . . 
                                                                                                                                          . . 4

          Penalties Against Vendors Who Sell Alcohol to Minors
 . . . . . . . . . . . . . . . . . . 7


          Penalties Against Minors
                                                                                                                                        . . . . 9

                  ntrollng Alcohol Sale and Distribution

          Employment of and Sales by Minors

          Dram Shop and Social Host Laws


          Laws Prohibiting Adults From Aiding Minors


          Creative Methods to Enforce Laws and Penalize Offenders

         Liiting Sales Near Schools and Universities
..,-€
   ...            ...




                                        INTRODUCTION€
          PUROSE€
          This compendium presents State alcoholic beverage control laws relating to youth for
          all 50 States and the District of Columbia.

         BACKGROUN€
         In response to public health concerns and the adverse health consequences of€
         alcohol abuse , Surgeon General Antonia Novello requested that the Offce of
         Inspector General (OIG) provide information on State alcohol laws pertaining to
         youth. These concerns mior one of Department of Health and Human Servces



                                          alcohol. €
         Secretary Louis Sullvan s goals which is to reduce the prevalence of alcohol
         problems among children and youth. This report is one in a series prepared by the
         OIG related to youth and

         Youth Alcohol Use


         As   reported in recent surveys ,     youth under the legal     dring age of 21 dri alcohol.
         In a June 1991 report ,      the OIG reported that 51       percent of the 20. 7       milion junior
         and senior high school students have had at least 1 drink within the past year. In
         addition , 8 millon students      dr
                                          weekly, 454 000 binge weekly, and 6. 9 mion
         purchase their own alcohol from stores. ! According to the 1990 National High
         School Senior Survey, 89.5 percent of high school seniors have drunk alcohol at least

         once , and 32. 2 percent have experienced a "binge " of five or more driks in a row
         with the previous 2 weeks.

         State Alcoholi    Beverage    Contl€
         Two directives have infuenced greatly States ' control of alcoholic beverages. First€
         Arcle XX of the United States Constitution, which repealed prohibition , grants
         States " control over whether to permt importation and sale of liquor and how to
         strcture the liquor distnoution system. " Second ,          the National     Mium Drinkg
         Age Act of 1984 requires each State to make purchase and public possession by€
         persons under 21 years of age ilegal or risk reduction in highway funds.





             lattce €
                      of Inspector General, 
 Youth and AIcohol: A National   Survev-- Drinkinl! Habits.   Accs.
         Attitudes. and Knowledee. June 1991, p.

              2University of Michigan, Intitute for Social Research, " Monitoring the Future:   A Continuing€
         Study of the Ufestyles and Values of Youth: January 1991.€
."".,




          In response to these mandates , States have developed unique liquor laws relating                 to
          youth. These laws mayor may not address:

                      Sales to miors. Prohibits vendors or any other persons from sellng, giving,
                      or otherwse providing alcohol                to minors.

                      Purchase. Prohibits or limits minors from obtaining alcohol from vendors or
                      other sources.



                      Possession. Generally prohibits or limits minors from carrng or handling
                      alcohol. All State laws contain various exemptions , such as handling alcohol
                      in the course of        employment and possession with parental permission.

                     Consumption. Prohibits or limits minors ' actual drinking of alcoholic
                     beverages.

                     Mirepresentation of age. Provides for penalties against minors who present
                     false identification or otherwse represent themselves as being of the legal
                     purchase age.

         In addition ,         States may regulate alcohol sale and distribution , establish advertising
         gudelines , and enact penalties for violators of these laws.              State Alcoholic   Beverage
         Control (ABC) agencies generally administer these laws.

         MEODOLOGY
         Durig July             1991 ,   we reviewed all State alcohol control laws and regulations primarily
         pertaing to youth. We used                  the Commerce Clearing House
                                                                                      Liquor Control Law
         Reporter,         which continually tracks and updates State liquor
                                                                                    control laws. To validate
         our information ,              we also used the National Highway Traffic Safety Administration
         Di est of State Alcohol-              Hi hwa Safe Related Le ' slation and the Distiled Spirts
         Council of the United States
                                                    Summary of State Laws and Regulations Relating to
         Distiled Spirits We did not verify the data with States.

         In addition, we conducted intervews with ABC and/or State enforcement agency
         offcials from 48 States and the District of Columbia. For Hawai and Nevada, we
         intervewed offcials from appropriate local enforcement agencies. We used
         structured, discussion guides to obtain information about State laws , loopholes
         enforcement, and creative practices.

         DESCRONS OF MATRCE
         The matrices on pages 5 and 6 provide an overvew of the major laws and loopholes
         relatig to miors and alcoholic beverages. The matrices on pages                   8 through
':':,,-




          14 detail the penalties associated with breaking these laws. The fial 6 matrices , on
          pages 17 through 27 , detail various issues relating to the distribution , sale , and
          regulation of alcoholic beverages.
::"
 --..




                                                           MA TRICES€
                                                  LOOPHOLE IN STA1E LAWS
        The matrices on pages 5 and 6 ilustrate loopholes in State laws that allow underage€
        drinkg. Although all States prohibit vendors from sellng to minors:€
               23 States do not make it ilegal for a minor to
                                                                                                            attempt to purhae;

               6 States have no laws against minors who
                                                                                           purhae               alcohol;

              2 States have no laws banning or                               limiting minors from                  possesg       alcohol.
              Thirt-five States have exceptions , other than relating to employment , that
              allow minors to possess alcohol. Most commonly, minors may possess with
              parental permission or in private settings. Some States make it ilegal only if
              the minors intend to consume the alcohol;

              21 States have no laws that make
                                                          by minors specifically ilegal
                                                                             consptin

              although the minor may be charged under possession laws; and

              16 States have no laws                      prohibiting minors from deliberately                               miepresentg
              their    age to obtain alcohol. Nineteen States have                                            no laws prohibiting minors
              from presentg false identification docents                                            (ID).      Five States have neither
              prohibition. Some ABC offcials stated that their misrepresentation of age
              provisions make it ilegal for minors to attempt to purchase alcohol.
              However, seven States have no provisions for misrepresentation of age or€
              attempting to purchase.
  '"
" ' , "' .




                  STATES                        LOOPHOLES IN STATE LAWS
                                       SALE         ATTMPT       PURCHASE 3   POSSES 4




       HA PROH        VEFROM
     : 2-AT: PROHIT OR UM MI
                                   SE
                                 ATI    OBAI AL
                                        TO                                        POAN SP
                                                                         EXuollO TO      LAW:



             4-
             TfCHPROH MIRSLI MI
                   PROHmIT OR
                                       FROM
                                  OBAI ALC
                             CAYI HA AL BEGE
                                FROM
                                        FROM
                                           OR
                                                    TO
                                                         FROM
                                                                FROM     A-PAR. GUAR
                                                                         IHA1E
                                                                         C-NAL
                                                                         E-nAL TO PO
~~~
 , '€




            STATES                              LOOPHOLES IN STATE LAWS
                                  CONSUME                                       PRESENT FAKE ID 3




        -n    OO LI  ESLt
        2-
        3-
             TO
        MOY PEAH   UN
                       IN
                      YE
                   TO PENS
        I-NS PROH LI MIOR
                   AGE PROHIT
                      FO TH
              FAL ID PROHIT
                                 19

                                MI PR
                                PU
                                MJ
                                              MJ
                                       OF OBAINING
                                      FROM   PRaE
                                                  DR AL I.
                                             OF AGE€
                                       FROM AcnAlY
                                                           TH AGE (NT
                                                                     BEVGE

                                                       FAL ID TO OBAIN ALC
                                                                             TO FAL   II

..."   "'.




                  PENALTI AGAIST VENDORS WHO SELL ALOHOL TO MIORS
             As shown on the matri on       the following page , vendors face various criminal and
             administrative penalties if they are caught sellng alcohol to a minor. Criminal
             penalties result from violating State criminal codes and local ordinances.
             Administrative penalties result from violating State and/or local license requirements.



             jail.
             Al States allow vendors and their employees to be charged criminally if convi ted of
             selling alcohol to a minor. These fines range from $50 to $10 000 amI/or 5 years in


             Most States also allow ABCs to levy administrative penalties against vendors. For
             the first offense , these penalties range from a $50 fine to a $5 000 fine or a
             6-mont license suspension. Iowa does not levy administrative penalties         against
             vendors who sell to 19- or 20-year-olds.

             As discussed in the OIG report "Youth and Alcohol: Laws and Enforcement-- Is the
             21-Year- Old Drinking Age a Myth?" , State officials acknowledged that enforcement
             diffculties , lenient courts , and the availabilty of optional , alternative vendor penalties
             limits the overall effectiveness of strict laws and penalty provisions.
:-.                                                                                                      . ,"......




                  STATES
                                            FIE
                                                   CRAL PENALTIE AGAINST VENDORS
                                                    JAI** FINE                          ADMISTTI€
                                                                                               SUSPENDIRVOKE€



                                                                                                  :a:,€



                                                                                                             .m. ...€




      II SPIN 11 PE EX BU AR NO SP
      *F         SPAC                                                IN CC   LAWS AN   RENS€
      MlAL US
      -PTI
      -JAI TES
                 FO SE PE t7 AN
                         OR UN

           LI AR FO SE PE AN
                           ARE
                                  MAY BE PAI



                        US AR 11 MA
                                      TO
                                       TO
                                                 IN LI OF€

                                                   18
                                               ALABLE€
                                                          tJ
                                                         UN    TO   1D
                                                                TO 20
                                                                         YE OL€
                                                                         YE OL€
                            PENALTI AGAIST MIORS€
The following six matrices describe the penalties against minors who violate alcohol€
laws concerning:


(1)   Attempt to purchase. Penalties against minors who attempt to purchase
      alcohol from vendors range from a $10 fine to a $1, 000 fine with a I-year jail
      term.

(2)   Puchase. Penalties against minors who purchase alcohol from vendors range
      from a $10 fine     to a $5   000 fine with a I-year jail term.

(3)   Possession. Penalties against minors who are caught ilegally carrng or
      handling alcoholic beverages range from a $10 fine to a $5 000 fine with a
        year jail term.

(4)   Consumption. Penalties against minors caught drinking alcoholic beverages€
      range from a $25 fine to a $5 000 fine with a I-year jail term.€

(5)   Mirepresentation of age. Penalties against minors who represent themselves
      as being of legal drinking age range from a $10 fine to a $5 000 fine with a
        year jail term.

(6)   Fale Identication. Penalties against minors who use false ID to obtain
      alcohol range from a $25 fine to a $5 000 fine with a I-year jail term.
                     .' ,
                      :':::g'
                   ;;,.
                   , ""'"
                     '"'"
                       ."-::
                           ".:
                         , ""'. " :: ::'
                         , '''"'           ,. .::::"
                                                ::::::
                                                   : ,::::
                                                  ''        ;" . =:,::::,".: ;."' "
                                                        " "":               ::: ;:'                ''::,
                                                                                                     ...:. ,
                                                                                                  ::"';:;:     .. :;",,-
                                                                                                                       :j::    "
                                                                                                                              .-
                                                                                                                         ', "::'
                                                                                                                              "                     ''' , " , " ' , , , .
                                                                                                                                     --" '''':::.:..;,;.
                                                                                                                                '...;...                                , :::
                                                                                                                                                                        ..",
                                                                                                                                                                           .,,;::.
                                                                                                                                                                               .


                                       PENALTIES AGAINST MINORS WHO
     STATES
                                   CLASS
                                          ATIEMPT TO PURCHASE***
                                                                                         FINE                                       JAIL TERM
                           MISDEMANOR " $50-$50                                                                                   MAX , 3 MOO
                            ;NO STATUT 0 0 0 . 0 . 0 0 NO STATU 0 0 0 0                                                          NOSTATU
                            CtASS 3-MISD , MA $50
                                                                                                                                                                            ; 0 0

                                                                                                       MA:, 3O DAYS
                                                                               NO STATU 0 0 0 0 0 0 0 0 NO STATUT.
                   o000
                         INCTON MA
                                 NO STATUT 0 0 0 0 0 0 . 0
                        PET OFF/MSD*
                                                                                           $100
                                                                                                                                                                            0 . 0




                                     sfATuT. 0 00 0 "
                                                                                         $50
                                                                        $25$100I$25$1() NONE-



                                                                                      OSTATU..                      l:'
                                                                                                                                                          MOS*

                                                                                                                                                   ATuo ooo
                                     STATu ;o oo                              NO"STATUT'                                      ;YNd::StATU;
                   o 0 0 0 NO        STATU
                                    0 . 0 0 0 . 0 0 NO STATU 0 0 0 0 0 0 0 0 NO STATUT 0 . . 0

                   o 0 0 0 NOSTATUT 0 . 0 0 . 0 0 0 NO STATU 0 0 0 0 .. 0 0 NO STATUT 0 0 . .
                   o o. 0 NO STATUT 0 0 0 0 0 0 0 0 NO STATU 0 0 0 0 0 0 0 NO STATUT. . .
                                   , EMEANOR "
                                  OSTATU:
                                                                                      MA
                                                                              NOSTATImr; o.
                                                                                           $100                                           STArt:
                                         INFRC " MA $50 "
                                                            o 000 00

                    :!;,.CtASSC                                                                                                            SrATI '
                   o 0 0 .       NO STATUT 0 0 . . 0 0 0 0 NO STATU 0 0 0 0 . 0 0 0 NO STATUT 0 00 0
                    JU/CLASS            C-MISD-                        $100$501$100$50                                ONEMA MONT-



                   . 0 0 . NO STATU
                           MISDEMEANOR MA
                                  P,; STATU
                                                        0 0 0 0 0 . 0 0



                                                                \ 0
                                                                                         $3 i;j
                                                                       ;;o NQ'; STATU:o . o
                                                                                                ft:
                                                                                           $700 MA
                                                                              NO STATUT 0 . 0 0 o. 0 0 NO STATUT 0 0 0 0
                                                                                                                                               90 DAYS
                                                                                                                                          StA1i'
                                                                                                                                                                              :i:1




                                                                                                                                                                            ;i';

                            CL   inMrD
                                                          :l'     :i              Sti
                                                                                  MAS50 ",
                                                                                                           "f'
                                                                                                                             MAX 3 MOS
                                                                                                                                                                      .o,



                   o000     NO STATUT.    0 . 0 0 . . . NO STATU. . o. 0                                               0 0 0 NO STATUT 0 0 0 .
                   . 0 0 0    NO STATU 0 . .. 0 .. 0 NO STATU 0 0 0 0 .. 0 0 NO                                                           STATU

                             :RDERtY:'PERSbN                 $100:                                                                                    M:OS"

                                                       :':Ji'                                                                           ;fSA
                      MIDIICTON* UNSPECIFDI$25* MA 2 YEARSINONE*
                           CLAS B-MISD
                       1S DEGREE-MISD MAX $100
                                                                                  MA $50                                      MA 30 DAYS
                                                                                                                                 MAX 6 MOS
                        ," SDEMEANOR'  "MA $100, ,
                          VIOLATION, ' :MAS25
                                                                                  :' $25-$100"
                                                                                       $100
                                 NO STATUT 0 0 . 0 0 0 0 0 NO STATU                                                . 0 0 . NO STATUT 0 0 0 0
                   o 0 . .

                            CLASS 2-MISD                                          MA $20           0 0 ..
                                                                                                                              MA
                                                                                                                               30 DAYS


                   :ti NO STATUT
                   o000             . 0 NO STATU 0 0 0 0 . 0 . . NO STATUT 0 0 0 0
                                                       0 . o. 0 0
                   o . . . NO STATU.. . NO STATUT 0 0 0 0 . 0 . . NO STATUT 0 0 0 0
                          MISDEMEANOR
                                                           0 .. . .

                                                                 MAX 90 DAYS      $250$100
                                                                                                                          ::;:MA72
                                  FE~~OR
                        :jMlEMEANOR; "                                            MA       $750

BLA SPACE INCATE THAT INRMATI IS NOT
-SEPARTE PROVINS EXI FOR PERSON UNER 1911 TO 20€
                                                                SPCI
                                                 IN CCH LAWS AND REGUTIONS€
-SEARATE PROVINS EX FO PERSNS              UN
                                      18/8 TO 20
-ATMPT TO PUCHE: PROHIT OR LIMI MINS ATIMPG TO OBAI ALCOOL FROM VEDORS€
                                                                                 JU-JU OFNS

 ....' .
--;';:                         ... ..
                                    . ...
                                     .-...
                                     ..
                                     "". . .."
                                       ~~~~~
                                    ..-.    ...  :: '           ...   . .. .
                                                                 ., " ,
                                                                 ,                  ",' "
                                                                               ::; ..,..,   '"
                                                                                          '''"      , ""...   :!"                 ,,




                STATES              PENALTIES AGAINST MINORS WHO PURCHASE***

                                      MIDEMEANOR
                                                CLASS
                                      CLASS A-MISD
                                                                                             FI
                                                                                         $SO$50
                                                                                        MAX $50
                                                                                                                    JAIL TERM

                                                                                                                    MJ,   :MOS,
                                                                                                                    MtXl, :YEAR
                                      " CLASS' I-MISD                                   MAX $25                     .MAX6. MOS'
                                                                                         $10-$50
                                                                                        $250-$100
                                                                               $2$I00I$
                                                           TI
                                                        ' i\
                                      lid'STATU.... ;):' oST nr':'                :'1
                                                                                                          E;-
                                      N6STATU.... .... NO STATUE....
                                      MISDEMANOR MA $30
                                       PEI
                                     fMISDEMANoR" "
                                                               MISD
                                                           MA $100
                                                               $100, "
                                      :ctASC+MID.          MAi $5O:'
                                     CEAS CINC.          ::MAX 5O"
                                     MISDIVOLATION* $100/$15
                                JU/CLASS C-MISDH $100$50/$100$5
                                                                                         $10-$100
                                                                                        'MAJ($30
                                                                                        :$I00$3(Xr;,
                                                                                        MA $100
                                                                                             $30
                                                                                        MAX $25
                                      MISDEMEANOR MA $700
                                               DEMEANOR                            ::'MA;, $100
                                                                                  N(l
                                      CLASS IrI-MISD MA $50
                                     MISDEMANOR MA $100
                              . . . . NO STATU.                  . .. . . . . NO STATUE. . .
                                    '1S
                                                          af!- . .'Ef
                                    MISDIIAcnON* UNSPEClI$25*
                                     CLAS B-MISD MA $50
                                    1S DEGREE-MISD MA $1000

                                                                                            $100
                                                                                        $100$20
                                                                                        MA $200

                                                                                        MA $50
                                      CLASS l-MISD
                                 MA $25
                                     MISDEMEANOR                                                 $100
                                               DEMANOR                                  MM: $5'
                             ';1:   tti;MIDEMANOR :"                                      AX$750'

           BLA SPACE INCATE THAT INRMATION IS NOT SPCI IN CCH LAWS AN REULON€
           "SEAR1' PROVONS EX FOR PERON UNER I9 TO€
           -SEARTE PROVIIONS EX FO
           -PUCH PROHIrr OR LI                     TO 20€
                                              PERSO UNER
                                               MIORS FROM
                                                                  18118
                                                                OBAI ALCOHOL FROM €
. ,                                                                             ......    ::::,;" .
                                                                                 "!.::!::;;'           .....
                                                                                                      ... "'
                                                                                                           ...;;..
                                                                                                        . ,'.....
                                                                                                            "."




          STATES
                                    CLASS
                              MISDEMEANOR
                                                               FI
                                PENALTIES AGAINST MINORS WHO POSSESS
                                                                               JAn. TERM

                                                                             MA 3 MOS
                                                                             MA , 1 YEAR'
                             .GLASS A..MISD
                               CLAS l MISD                                   MAX 6 ' MOS




                                                                                                 ... .n. ...,.n
                                                                            'm ,,    ;iSTATU,
                                                                            MAX 60 DAYS
                                                                            MA 30 DAYS
                                                                            MA 30 DAYS
                                                                                             ;.i;;i:.




      BLA SPACE INATE   THT INRMATION   IS NOT   SPECI IN CCH LAWS AN   REGUATINS€
      .SEARTE PROVI     EX FO PENS   UNDR   I9 TO €
      -SEARATE PROVINS       PERNS UNER        JU.1UNIE OFF€
      -PES              EXIST FOR
              PROHIT MIOR FROM CARYING OR HAUN
                                              1818 TO 20.
                                                      BEVGES€
                                                            ALCOHOLIC
  ', .€
. ,   " 
                                                                                                           . ....




                      STATES                  PENALTIES AGAINST MINORS WHO CONSUME**
                                                          CLASS                      FI                 JAI TERM€




            BLA SPACE INTE mAT                 INRMTION
                                                  PENS
                                                              IS NO     SP      IN   car LAWS   AN REGUTION

            *"NS
            -SEARTE PROVION          BX FO
                              PROHIIT OR     LIM MIRS
                                                           UNDER 18/8
                                                          FROM Ac:AILY
                                                                        TO 20
                                                                            DRIN ALCLI BEVRAGE
\ "




            STATES
                                CLASS              FI
                                     PENALTIES AGAINST MINORS WHO
                                       MISREPREENT THEIR AGE**
                                                                       JAIL TERM




      -MPU PE
      ATU PERTAI TO
      FOR   TI
                             18 AN
                 AGE PROHIT MIRS FROM
                     OF   OBTAI ALOL
                                     UNER ONY
                                          MISRPREN TH AGE   (NO   LIM TO FALS ID)
. -.!
   . -,,€                                                           . '                      .. ..




                                     PENALTIES AGAINST MINORS WHO€
                STATES€
                                   CLASS FIN
                                     PRESENT FALSE IDENTIFICATION*
                                                               JAn TERM€




                                                                    . . . . NO SfATUT .. . .€
                                                                       -: . NO SfATUT . . €




                                                                          MA 90 DAYS
                                                                    . . . . NO SfATUT   ..




            -PRNT FALS   IDATI   PROHIIT MIORS FROM   PRES FALS ID TO OBAI ALCO
, .€




                     CONTOlLG ALOHOL SAL AN DISTRUTON
        The following matrix describes States ' general administrative structures.

        Each State is responsible for the licensing and/or control of the alcoholic beverage
        distribution. Eighteen " control" States have partial or total responsibilty, for the
        distribution and sale of alcohol. These States are often identifed by the existence of
        State-ru liquor stores. Thirt- three "license " States issue permits or licenses to
        individuals or companies to control the distribution and sale of alcohol.

        Thir-nine States have " local option " provisions. These allow communities   to ban or
        otherwse limit alcohol sale and distribution.

        States require vendors to obtain State and/or local licenses. Generally, licenses are
        renewed on an annual basis after a renewal fee is paid and other requirements are
        met. As of July 1991 , there were approximately 560 000 retail licenses issued in the
        United States.




 , ;i
                    STATES       CONTOLLING ALCOHOL SALE AND DISTRmUTION
                                 CONTOULlCENSE                 LOCAL OPTON              ISSUIG LICENSES




) H:                                 RE                                      DIDIST         :=Y
  H.
 2-OC OPN: ALWS 

                    SlTE   IS LI
                      STATI ARPAIY 1UY
                               LO OR PE
                                  GO
                                   OR
                                        INAL
                                        TO
                                             FO TI
                                             TOTO ENAcr LAWS
                                                               OR roRATINS
                                                                       UM TH
                                                                                   AN
                                                                               TO SE    ALCO
                                                                                           AN SALE OF ALCOOL
  .'
---:-:..
   . .




                             EMLOYMNT OF AN SAL BY MINORS
           States regulate how old a person must be to sell alcohol and to be employed by a
           vendor in general.

           The matri on   the following page shows that 44 States allow minors to sell and/or
           serve alcohol without adult supervsion. AIl States allow minors to work in some
           capacity for licensed establishments.


           State laws allowing minors to sell or serve alcohol may result in easier youth access
           to alcohol. Accordig to an OIG survey of junior and senior high school students
           more than 3. 5 millon students purchase alcohol from stores with young clerks, and
           almost 3 milion students purchase alcohol from stores where they know the clerk.
,, ,-.
   ._- :               ...' ;"""""   :;;'       ',   :,
                                                     ";,




                      EMPLOYMENT OF AN SALES BY :MORS
           STATES   MINIMU AGE                     TO SELL
                                         MIUM AGE TO BE
                    WIOUT SUPERVISION EMPLOYED BY LICENSEE
                                                           .m,

                            g1::i
                                        :::9:


                                            W"""
""''
 --'




                             DRA SHOP AN SOCIA               HOST lAWS
       Dram shop and social host laws define the circumstances under which an alcohol
       vendor or other provider may be held liable for providing alcohol to minors.

       State ABC offcials believe that the threat of costly litigation deters vendors from
       selling alcohol to miors. However, the matri on the following page shows that only
       23 States specifically allow lawsuits against alcohol vendors who sell to minors. One
       State, South Dakota, clearly prohibits such lawsuits.

       Nine States specifically permit lawsuits against other persons , such as social hosts (for
       example , part hosts or parents who allow minors to drink in their homes) who
                                                                                           give
       alcohol to minors. Three States prohibit such lawsuits.

       In 1985 ,
               the Federal Government funded the development of a model dram shop
       law. This model law allows lawsuits for damages resulting from sale of alcohol to
       minors. New Hampshire , Maine , and Rhode Island are the only States that have
       adopted the portion of this model law that concerns minors.
;. .: ". .. ..;   !-               (:,..':-'       " "
                                         , ' '" ' ,;;
                                                   ,,;;,' :,
                                                          ", , "    " , , '~~~        ;";
                                                                   .:,, " ;:: ;:''.':;.;.:'              ,.. ' "
                                                                                                               , :,'
                                                                                                           ..:..:,    ::, ..,::,
                                                                                                           ':' :'.:,,,,...;    ;;:"
                                                                                                                             ,"" ,,;,,,€
                                                                                                                                 ".';:"'              &:'~~~~
                                                                                                                                                  ";:"'.
                                                                                                                                                  !.!;:  ;,::,:':
                                                                                                                                                       " """                     ""' '.'", "".,.' ""
                                                                                                                                                                                "'   .""  ' ';" :' '.' ..,,
                                                                                                                                                                                      ":'!j,:;         . ,




                                                                                              DRAM SHOP AND SOCIA HOST LAWS€
                         STATES
                                                                      DRAM SHOP LAWS                                                              SOCIAL HOST LAWS2


                                                                                              ALLOWS
                                                                                              ALLOWS" UNCLE €                                                       ALLOWS€

                                                                                              ALows
                                                       NOTIG SPECIFC TO MIORS NOTHNG SPECIFC TO MIORS€
                                                                                                                                                                  PROHIITS€

                                                       ALOWS WIH UMTATIONS* PROHIITS€
                                              iTNCttHNG
                                                                                              ALLOWS :ijqTHG
                                                                                                      ALLOWS
MIORS€
                                                                                        SPECIFC TO MIRS:,                                                         SffqIFC TO
                                            /i:, NQTHG' $PECIFC TO MIORS NOTH(rSrECIFC TO     ORS€
                                            :m::



                                                             WI
                                                        ALLOWS  UMIATIONS** UNCLEAR,€
                                                                            LIMD*€
                                                                                              ALLOWS
                                               1j;NQTHGSPECIFC TO MrNORS' &OTIG SPECI , TO MIORS€


                                                       NOTIG                            SPECIC TO MIORS NOTHNG SPECIFC TO MIORS€
                                                                                         tJ€&      JXi,
                                                       TIGSPECIFIC TO' "..,, ::RS' " ' QJ1Q:.SPECWIC ,
                                                                                                                                                   ::;::i::i!;i

                                                                                                        QRS
                                                      NOTIG SPECIFC TO MIORS NOTHNG SPECIFC TO MIORS€
                                                      NOTHIG SPECIFIC TO MIORS NOTHNG SPECIFC TO MIORS€
                                                      NOTIG SPECIFC TO MIORS NOTHNG SreCIFC TO MIORS
                                                      NOTHG SPECIFC TO MIORS NQTIG.', SP.JCI8C TO'  ORS;'
                                                                                              ALLOWS ,                               NbTHNGSPECIFIC TO MIORS'€
                                                       THG SPECIFIC TO MIORS NQTHNGSPECIFC TO MIORS

                                                                                              ALLOWS
                                                      NOTIG SPECIIC TO MIORS NOTHG SPECIFC TO MIORS€
                                                                                              ALLOWS                                 NOTHNG SPECIFC TO MIORS€
                                                                                                                                                                    ALLOWS€

                                                      "O                                                        ORS                 :NQ€
                                                                                                                                                                     Z:0g
                                                             ALOWS' '                l;J\toWS.
                                                      NOTHG 5PEctC TO MIORS' NO'IOn SPECmC TO MIORS
                                                      NOTHG SPECIFIC TO MIORS NOTHNG SPECIFC TO MIORS
                                                                                              ALLOWS
                                                                               NOTHG SPECIFC TO MIORS€
                                                             AtO\vS           NQJ'G" $PEGWICtOMfORS,'€
                                                                                   ,;;hAi.Lbws                                             tiT.                           IMIATI()Ii€
                                                                                              An' ows,
                                                                                              ALOWS
                                                                                          ALLOWS NOTHG SPECIFC  TO MIORS€
                                                                                          ALLOWS NOTHNG SPECIFC TO MIORS€
                                                                                                         ALLOWS€
                                                                                                                                                                      t:;O'WS              !qmt m::'1!:::€




                                                                                          PECIFICTOMWQ                                        1'Q,.           rI;PJ8c. TO, MmQ
                                                                             o::.SrECIFC:TO").1IN'0RS':                            :N'Q                     :SpaCIFC , TO'M!ORS:..
                                                                            :NOTG: SPEciFcTOMtoRS'€
                                                                                    tSPECIFc:TO MlbRS);
                                                             ALLOWS         ALLOWS WI LIMIATIONS**€

                                                                                       PROHIIT
                                                      NOTHG SPECIC TO MIORS NOTHNG SPECIFC TO MIORS€
                                                                                 ;YiALLOWS: ' "                       :;-r,
                                                                                                                                                             PROHIIT€
                                                                                                                                                              ONCLE'
                                                                             G SPECIFC .TO                     ORS ,                                              J?EqFC TO MIORS
                                                                                         ALLQWS" '
                                                            ALLOWS NOTHG SPECIC TO MIORS
                                                     NOTHG SPECIFC TO MIORS NOTING SPECIFC TO MIORS
                                                                                                                                      ;:;,'-",L                   ALLOWS'


                                                     NQ'1G                           SPECIC , TO MJQRS                             ,NOTHNG                             WIC TO MIORS
                                                                                                                                                                                  S:'€

                                                               J'G                   SPECIFC TO MIORS'. , NQTHl'G"                                                   ClFIC TO                    ORS€

                    .VILY INXITED €
                    -KNOWI SUC PEN SHU. SO                            BE        DRIV€
                    -ALCO PROVI "RCKESr€
                       SHOP LAWS AlOWS OR PROHIT LAWS AGAI
                  2-SOAL HO  LAWS ALLOWS OR PROHIIT LAWS AGAIN
                                                                                                          VE      DAMGE CAUS
                                                                                                          A PESO WH GI
                                                                                                                               FOR                                         BY INOXICATE
                                                                                                                                                           ALCOHOL TO A MIR.
                                                                                                                                                                                                              MIOR.
.:.




                  lAWS PROHIITG ADULTS FROM AIING MIORS€
      The matri on page      23 shows that most States have laws designed to prohibit adults€
      from helping minors obtain alcohol. Most commonly, States prohibit adults from€
      buying for, selling to , or giving to minors. Some States only prohibit misrepresenting
      the age of a minor or aiding and assisting a minor in purchasing and consuming€
      alcoholic beverages. A few States make it ilegal to perform specifc acts , such as
      transporting or possessing alcohol in a car with the intent to   sell to a minor.
 -..
,", ' -."-




             STATES   ACTS   PROIDBITD BY ADULTS ON BEHALF OF MIORS
,..€




        CRTI MEODS TO ENFORCE LAWS AN PENALIZ OFFNDER
       The following matri ilustrates which States have undertaken creative methods to
       enforce and prosecute youth alcohol offenses:

             Madatory drer's license suspension. Twenty-eight States delay, suspend , or
             revoke youth drivers ' licenses for alcohol-related violations. Some States take
             action for any alcohol violation , while others do so for specifc violations only.
             The suspension varies from several days to several years , depending on the
             State , the violation , and the minor s record. Officials from States with this
             option argue that traditional , statutory penalties do not deter youth and "the
             one thing that a minor cares about is his driver s license.

             Alowig vendors to require purchasers to sign an afdavit (a legal docuent)€
             swearg that he or she is 21. Eleven States have this affidavit option. The
             affdavit explains the penalties against minors who attempt to purchase alcohol
             or misrepresent their age. Vendors support this because the affdavit serves€
             as proof that the minor misrepresented his or her age.€

             Mandatory server   trg. Eleven States mandate that all alcohol servers, andand
             sellers undergo training regarding State alcohol control laws , regulations
             penalties , their civil liabilty for sellng to a minor, how to identify an underage
             drinker , and how to determine whether an identifcation card is genuine.
             Fort-seven of 51 State officials believe that increasing server training would
             be effective in preventing minors from obtaining and consuming alcohol.

             Prohibitig adverting that appeal to youth.      Seventeen   States have laws that€
             generally prohibit advertising that appeals to youth.€
. '. '




             STATES        CREATIVE METHODS TO ENFORCE ALCOHOL LAWS
                          SUSPEND LICENSE    AFDAVIT 2 TRA VEDOR             ADVERTISE 4




    l-SU   LI                                     LI
                STATE ALW FOR SUPENION OF MIR'S DRR'S     FOR   VITINS OF ALOL COOL        LAWS.


    3-TR VER: VES AN TH EMPL ARE
    4-ADVE LI TH USE OF   MI                JN
    2-AFAVI: REQU SUCI MI TO SIGN AN AFAVI STAT mAT
                                OR IMGE ASTE wr
                                                   ME MI ADVE

                                                  OF TH
                                                   MI
                                                          HE OR  SH IS OVE 2L€
                                                          IN ALCOHOL
                                                                     US TO OBT ALCOOL.

-:,,"'




                     LIMG SAL NE SCHOOLS AN UNRSIT
         The matrix on page 27 shows that 25 States prohibit alcohol vendors from locating
         their businesses within 100 to 1 500 feet from schools. In addition , 10 States prohibit
         vendors from locating near university campuses.
          LIMITS ON SALES NEAR SCHOOLS AND UNIVERSITIE
STATES
            SCHOOL DISTANCE UNRSIT             DISTANCE




           IT   DI.
         -AB MAY AUOW IJ        --Y BB
                                 BY
                                         WAI
                                      UNRS.
